ASSET MANAGEMENT: Amtrak Followed
Sound Practices in Developing a Preliminary
Business Case for Procuring Next-Generation
High-Speed Trainsets and Could Enhance its
Final Case with Further Analysis




                       Report No. OIG-E-2014-007 | May 29, 2014
This page intentionally left blank.
   NATIONAL RAILROAD
   PASSENGER CORPORATION




                                            REPORT HIGHLIGHTS
Why We Did This Review                        ASSET MANAGEMENT: Amtrak Followed Sound Practices in Developing a
                                               Preliminary Business Case for Procuring Next-Generation High-Speed
                                              Trainsets and Could Enhance its Final Case with Further Analysis (Report
                                                               No. OIG-E-2014-007, May 29, 2014)
Amtrak is soliciting proposals for
up to 28 next-generation high-             What We Found
speed trainsets to increase seating
capacity on its premium high-              The company generally followed sound business practices in developing a
speed service on the Northeast             preliminary business case to support its request for proposals for next-
Corridor (NEC) and to replace the          generation high-speed trainsets. We agree with officials from the company’s
20 trainsets that it currently             acquisition team that the business case was adequate for soliciting proposals
operates. These new trainsets              from potential manufacturers.
could generate about $10.2 billion
                                           According to the acquisition team leader, the preliminary business case was
more revenue than existing
                                           intended to be a high-level analysis. After receiving additional information
trainsets at an incremental cost of
                                           from bidders, the team plans to develop a more detailed business case prior to
up to $5.1 billion, according to the
                                           seeking approval to purchase new equipment. Therefore, we have identified
company’s preliminary business
                                           several opportunities to enhance the final business case, which the acquisition
case supporting the solicitation.
                                           team has agreed to address, including:
Given the financial magnitude of this           High-level forecasts. We identified opportunities to improve the
acquisition, we have reviewed the                company’s forecasts of projected ridership, potential capacity constraints,
preliminary business case and the                maintenance and overhaul costs, and required infrastructure investments.
supporting documentation and                     A more refined analysis in these areas could enhance the final business
analysis. We compared them with the              case and minimize the company’s risk in procuring new trainsets.
sound business practices discussed in           Operational challenges. The business case assumes that the company can
two prior reports on capital and fleet           add daily round trips between Washington and New York during peak
planning. This report (1) discusses the          hours to further increase ridership and revenue. However, the
extent to which the business case                preliminary business case did not address the facility modifications and
incorporated these sound business                scheduling issues associated with adding trips during peak hours.
practices and (2) identifies issues that
the company could address to                    Integration of regional equipment needs. The financial projections in the
enhance the final business case and              business case for the NEC business line rely on revenue generated from
improve its assessment of the                    both high-speed and regional service. However, the equipment in
company’s risks in procuring new                 regional service is old and, according to Amtrak, needs to be replaced or
trainsets.                                       refurbished. The preliminary business case did not identify how these
                                                 needs will be addressed, or the impact that aging regional equipment
                                                 could have on future maintenance costs and revenue growth.
For further information, contact
Calvin Evans, Assistant Inspector          Recommendations
General for Inspections &
Evaluations at 202-906-4507.                As the final business case is developed, we recommend that the issues
                                            discussed in this report related to forecasts, preferred alternatives, and
The full report is at                       integrated planning be addressed appropriately. This could be accomplished
www.amtrakoig.gov/reading-room              by revising the analysis supporting the final business case or by assessing the
                                            potential impact of each issue with an expanded sensitivity analysis within the
                                            final business case. Amtrak agreed with our recommendation.
This page intentionally left blank.
      NATIONAL RAILROAD
      PASSENGER CORPORATION




Memorandum
To:         Mark Yachmetz, Chief, Strategic Fleet Rail Initiatives

From:       Calvin E. Evans, Assistant Inspector General, Inspections and Evaluations

Date:       May 29, 2014

Subject: Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
            Business Case for Procuring Next-Generation High-Speed Trainsets and Could
            Enhance its Final Case with Further Analysis (Report No. OIG-E-2014-007)

In January 2014, the company issued a formal request for proposals to build up to 28
next-generation high-speed trainsets to increase seating capacity on its premium
service on the Northeast Corridor (NEC).1 This new equipment is intended to replace
the 20 trainsets that it currently operates in high-speed service. The acquisition effort is
led by the Chief, Strategic Fleet Rail Initiatives with assistance from four departments:
Finance, Marketing and Sales, Northeast Corridor Infrastructure & Investment
Development, and Operations (which we will refer to as the acquisition team). These
new trainsets could generate about $10.2 billion more revenue than existing trainsets at
an incremental cost of up to $5.1 billion, according to the preliminary business case
developed by the acquisition team to support the request for proposals.2

According to the acquisition team leader, the preliminary business case was intended
to be a high-level analysis. After receiving additional information from bidders, the


1 Amtrak jointly issued this request with the California High-Speed Rail Authority at the request of the
Department of Transportation.
2 These projections reflect inflation of costs and revenue over a 31-year period. The total cost includes

costs for acquiring and operating the equipment, and improvements to related facilities and
infrastructure.
                                                                                                     2
                           Amtrak Office of Inspector General
    Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
        Business Case for Procuring Next Generation High-Speed Trainsets and
                 Could Enhance its Final Case with Further Analysis.
                            OIG-E-2014-007, May 29, 2014

team plans to develop a more detailed business case prior to seeking approval to
purchase new equipment.

Given the financial magnitude of the potential acquisition, we reviewed the
preliminary business case and its supporting documentation and analysis. We
compared them with the sound business practices discussed in two of our prior
reports,3 including:

       identifying equipment needs through analyses of route-specific ridership
        demand and forecasts of equipment availability
       developing high-quality cost, benefit, and schedule estimates
       analyzing alternatives to cost-effectively meet needs
       assessing risks, including conducting sensitivity analyses on data and
        assumptions
       integrating procurement plans with corporate business and financial plans

This report discusses (1) the extent to which the preliminary business case
incorporated these sound business practices and (2) issues that the acquisition team
could address to enhance the final business case and improve its assessment of the
company’s risk in procuring new trainsets. For a detailed discussion of our
methodology, see Appendix A.




3We previously reviewed the company’s processes for developing its fleet plan and for developing
business cases. For more information, see these two OIG reports: Asset Management: Integrating Sound
Business Practices into its Fleet Planning Process Could Save Amtrak Hundreds of Millions of Dollars on
Equipment Procurements (OIG-E-2013-014, May 28, 2013), and Corporate Governance: Planned Changes Should
Improve Amtrak’s Capital Planning Process, and Further Adoption of Sound Business Practices Will Help
Optimize the Use of Limited Capital Funds (OIG-E-2013-020, August 28, 2013).
                                                                                         3
                         Amtrak Office of Inspector General
  Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
      Business Case for Procuring Next Generation High-Speed Trainsets and
               Could Enhance its Final Case with Further Analysis.
                          OIG-E-2014-007, May 29, 2014

SOUND PRACTICES WERE FOLLOWED, AND THE
PRELIMINARY BUSINESS CASE WAS ADEQUATE FOR
SOLICITING PROPOSALS

The preliminary business case described the potential costs and benefits of several
options to increase seating capacity on the company’s NEC high-speed service and
generally followed sound business practices. Specifically, the acquisition team:

      determined potential equipment needs using ridership demand analysis of
       Northeast Corridor high-speed and regional routes
      analyzed multiple alternatives to meet equipment needs
      developed extensive forecasts based on actual ridership, operations, and cost
       data to model the benefits and costs of each alternative
      explored options to reduce acquisition costs by working with the California
       High-Speed Rail Authority to pursue a joint acquisition of a common equipment
       platform
      created cross-functional working groups and involved senior management in
       planning and decision-making
      identified potential risks—including identifying the safety and maintenance
       waivers that the company needs to obtain from the Federal Railroad
       Administration in advance of an acquisition—and conducted sensitivity
       analyses on some data and assumptions to account for possible variations to its
       forecasts

We agree with acquisition team officials that the business case was adequate for
soliciting proposals from potential manufacturers, given the team’s need for additional
information and minimal risk to the company.



FURTHER ANALYSIS AND RISK ASSESSMENT COULD
IMPROVE THE FINAL BUSINESS CASE

In reviewing the preliminary business case, we identified several areas that could be
further developed to enhance the final business case and improve the acquisition
                                                                                       4
                         Amtrak Office of Inspector General
  Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
      Business Case for Procuring Next Generation High-Speed Trainsets and
               Could Enhance its Final Case with Further Analysis.
                          OIG-E-2014-007, May 29, 2014

team’s assessment of the company’s risk in procuring new trainsets. These include
refining its ridership and other high-level forecasts, fully addressing the challenges
associated with the preferred alternatives, and better integrating this procurement with
the overall plans for the NEC business line. We briefed the acquisition team on these
areas on March 17, 2014. The sections below summarize the significant issues discussed
in that meeting and the acquisition team’s comments.

High-Level Forecasts Could Be Refined

Forecasts for the final business case could be enhanced by employing more refined
analysis in the following areas:

      Ridership forecasting. The model used to forecast ridership utilizes a high-level
       method to assess the effect of the trainsets’ capacity constraints that did not
       account for variations in demand at different times of day and on different days
       of the week. Therefore, the accuracy of the ridership and revenue forecasts are
       not as precise as they could be and may be overstated. Acquisition team officials
       agreed that this model may have resulted in an inaccurate estimate of projected
       ridership and stated that they already planned to modify it to address the
       accuracy of the forecasts.

      Capacity constraints. Although the business case projects potential revenue
       through 2045, growth in potential ridership was forecasted only through 2030.
       Acquisition team officials said that they opted to hold these forecasts constant
       after 2030 because forecasts beyond that date were unlikely to accurately project
       future market conditions or demand for service. They also said they wanted to
       avoid tying the hands of future decision-makers by potentially not procuring
       enough capacity to meet future ridership demand. They therefore plan to build
       future purchase options into the contract to help address this issue. We
       acknowledge that it is difficult to accurately develop long-term projections.
       However, without projecting potential capacity constraints over the entire
       expected life of the equipment, it is unclear how the business case will support
       the decision to build future purchase options into a contract, and the optimal
       timing and size of these purchase options.
                                                                                     5
                       Amtrak Office of Inspector General
Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
    Business Case for Procuring Next Generation High-Speed Trainsets and
             Could Enhance its Final Case with Further Analysis.
                        OIG-E-2014-007, May 29, 2014

   Maintenance costs. By replacing existing trainsets, the preliminary business
    case estimates savings of about $675 million in projected maintenance costs from
    2018 to 2045. However, this level of savings may be unachievable. The estimates
    were based on the costs experienced by foreign railroads that operate high-
    speed rail equipment without adjusting these costs to take into consideration
    Amtrak’s experience operating high-speed equipment in the U.S. Therefore,
    without conducting further analysis, the final business case may understate the
    costs of operating the new trainsets. The acquisition team officials agreed that
    this area needed to be looked at more closely in developing the final business
    case and said that information obtained through the proposal process will help
    them to better estimate future maintenance costs and potential savings.

   Overhaul costs. The preliminary business case estimates that it will cost about
    $92 million to overhaul the next-generation equipment from 2018 to 2045. These
    projected costs are almost 10 times less than the projected costs (about $885
    million) for overhauling the 20 existing Acela trainsets over their lifetime. We
    agree that some savings in overhaul costs may be achieved by procuring new
    trainsets. However, the basis for these savings is not clear because the
    preliminary business case did not contain detailed support for the projected
    overhaul costs for either Acela or the new trainsets. Therefore, without more
    detailed support and further analysis to refine the overhaul costs and savings
    estimates, the final business case may overstate the benefits of procuring the
    new trainsets. Acquisition team officials stated that overhaul costs and potential
    savings could be better estimated after they receive proposals, and agree that
    this area needs to be looked at more closely as the business case is finalized.

   Infrastructure investment. The preliminary business case included a capital
    investment of $270 million to renew the high-speed track infrastructure between
    Washington D.C. and New York City. An acquisition team official told us this
    infrastructure improvement would be needed to improve ride quality regardless
    of whether new high-speed equipment is purchased. We understand the need to
    renew the track infrastructure, but we question the inclusion of these capital
    costs in the business case because these improvements are unrelated to the
    equipment purchase and unnecessarily increase the capital costs of the
    procurement. Given this, it may be more appropriate to weigh the relative need
    for these improvements against other infrastructure projects competing for
                                                                                                        6
                           Amtrak Office of Inspector General
    Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
        Business Case for Procuring Next Generation High-Speed Trainsets and
                 Could Enhance its Final Case with Further Analysis.
                            OIG-E-2014-007, May 29, 2014

        capital funding as part of the company’s annual capital planning process.
        Acquisition team officials said that they planned to revisit these costs before
        completing the final business case.

Preferred Alternatives Raise Issues That Have Not Yet Been
Addressed

The preliminary business case discussed six alternatives and determined that two
alternatives—to buy up to 28 trainsets—would provide the most benefits.4 With both of
these alternatives, the business case assumes that the trainsets can be used to increase
the number of daily round trips between Washington and New York during peak
hours. However, the preliminary business case does not assess the potential facility
modifications and scheduling issues that will need to be addressed to increase the
round trips during peak hours. According to acquisition team officials, expanding
service during the peak hours would likely require the following modifications to
facilities and schedules:

       Some facilities have limited space for equipment storage and inspection
        facilities. An acquisition team official said that adding additional round trips
        will require the company to expand equipment storage and service facilities,
        and to modify how it cleans and services trainsets after they finish their routes
        before using them again.
       High-speed and Northeast Regional schedules in and out of New York’s
        Pennsylvania Station must be modified to accommodate additional departures
        during peak hours. These schedule changes may also require the company to
        work with commuter rail services that operate on the NEC.
       Further scheduling changes may also be needed to ensure that high-speed trains
        can bypass regional trains at stations along the NEC.



4 The other four alternatives included a range of options: (1) continue to operate the 20 Acela trainsets
through 2035, (2) replace Acela with 20 new 400 to 450-seat trainsets, (3) operate Acela through 2035 and
buy 8 new trainsets to expand capacity, and (4) replace Acela with 20 new trainsets and improve trip
times.
                                                                                                         7
                             Amtrak Office of Inspector General
      Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
          Business Case for Procuring Next Generation High-Speed Trainsets and
                   Could Enhance its Final Case with Further Analysis.
                              OIG-E-2014-007, May 29, 2014

Therefore, if these issues are not resolved, they could impact the projected financial
benefits of the preferred alternatives. Acquisition team officials believe that these
issues can be overcome, but noted that doing so will be difficult and agreed that the
final business case should identify the risks associated with these issues.

Integrating Regional Service Equipment Needs Would Enhance the
Business Case

The preliminary business case was not developed in the context of equipment plans for
the company’s entire NEC business line, which includes both Northeast Regional and
high-speed services. Although Amtrak is pursuing the acquisition of the high-speed
trainsets based on the projected service life of Acela, its FY 2013 fleet strategy5 states
that the passenger cars in NEC regional service have also exceeded their projected
service lives and need to be replaced. However, the business case does not consider
how the age and condition of those passenger cars could potentially affect the financial
forecasts for the business line. For example:

         The business case does not consider how the increasing costs of operating
          existing regional equipment may impact the operating costs projected for the
          business line. It projects costs for regional equipment maintenance through
          2045, but does not incorporate increasing costs for maintaining this equipment
          as it ages, although the company states in its fleet strategy that it expects
          maintenance costs to increase as equipment ages.

         The business case uses projected future growth in revenue for the business line
          to calculate the financial benefits of acquiring the new high-speed trainsets.
          However, it does not address the impact of funding requirements for future
          regional equipment procurements or major overhauls. Consequently, if funding
          is not available for regional equipment needs, the quality of regional service
          may be affected and the growth in revenue for the business line projected in the
          business case may not be achievable.



5   The company’s 2013 fleet strategy was incorporated into its 2013 to 2017 Five-Year Financial Plan.
                                                                                          8
                             Amtrak Office of Inspector General
      Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
          Business Case for Procuring Next Generation High-Speed Trainsets and
                   Could Enhance its Final Case with Further Analysis.
                              OIG-E-2014-007, May 29, 2014

Therefore, it is unclear whether the company will be able to achieve the projected
financial performance for the business line and also meet the overall equipment needs
of regional service. Without further integrating the analysis of these issues into the
final business case, the projected benefits of the high-speed train acquisition may be
overstated. Acquisition team officials acknowledged that it would be ideal to have a
comprehensive NEC equipment plan that includes fleet plans for both regional and
high-speed rail services.6 However, these officials did not believe that such a plan
would be developed before they submit their final acquisition plan to Amtrak’s Board
of Directors for approval. Therefore, they agreed that the final business case should
identify this issue as a risk.



CONCLUSION

The preliminary business case incorporated sound practices and provided sufficient
justification to issue the request for proposals. However, there are opportunities to
refine high-level forecasts, address issues associated with preferred alternatives, and
integrate planning for NEC equipment that would enhance the final business case. A
sound business case will be essential to decision makers as they consider the
acquisition’s estimated cost and benefits, and the level of risk associated with those
estimates. Acquisition team officials said they are committed to addressing
opportunities to enhance the final business case.



RECOMMENDATION

As the acquisition team develops its final business case, we recommend that the issues
discussed in this report related to forecasts, preferred alternatives, and integrated
planning be address appropriately. This could be accomplished by revising the
analysis supporting the final business case or by assessing the potential impact of each
issue with an expanded sensitivity analysis within the final business case.



6   This statement is consistent with the company’s new approach to fleet planning.
                                                                                     9 
                         Amtrak Office of Inspector General
  Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
      Business Case for Procuring Next Generation High-Speed Trainsets and
               Could Enhance its Final Case with Further Analysis.
                          OIG-E-2014-007, May 29, 2014

MANAGEMENT COMMENTS AND OIG ANALYSIS
 
On May 22, 2014, Amtrak’s Chief of Strategic Fleet Rail Initiatives provided us with 
comments on a draft of this report in which he concurred with our recommendation 
and stated that the insights we provided would be useful as the company develops its 
final business case for this procurement (see Appendix B). The response also included 
technical comments on some of the issues we identified in the report. Because we had 
previously incorporated the information contained in the comments into this report 
based on a discussion with the acquisition team, we did not make any additional 
changes. 
 
Additionally, as described in one of these comments, the company takes exception to 
our opposition to the inclusion in the business case of a $270 million infrastructure 
investment to improve ride quality. We understand the need to improve ride quality; 
however, because the work will be needed whether new high‐speed trainsets are 
purchased or not, we continue to believe that this investment should not be included. 
We will review how this infrastructure investment is addressed in the final business 
case.  
 
We appreciate the courtesies and cooperation that Amtrak representatives extended to 
us during this review. If you have any questions, please contact me 
(Calvin.Evans@amtrakoig.gov, 202.906.4507) or Jason Venner, Senior Director 
(Jason.Venner@amtrakoig.gov, 202.906.4405).  
 
cc:  Joseph H. Boardman, President and Chief Executive Officer 
      Stephen J. Gardner, Vice President, NEC Infrastructure and Investment 
        Development 
      Matthew F. Hardison, Chief Marketing and Sales 
      Jerry Sokol, Chief Financial Officer 
      Donald J. Stadtler, Jr., Vice President, Operations 
      Matthew Gagnon, Senior Director, Business Processes and Management Controls 
      Melantha Page, Senior Audit Liaison 
 
 
                                
                                                                                       10
                          Amtrak Office of Inspector General
   Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
       Business Case for Procuring Next Generation High-Speed Trainsets and
                Could Enhance its Final Case with Further Analysis.
                           OIG-E-2014-007, May 29, 2014

                                      Appendix A

                      SCOPE AND METHODOLOGY

This report provides the results of our evaluation of Amtrak’s preliminary Next-
Generation High-Speed Rail business case. Our objectives for this report were to
determine (1) the extent to which the preliminary business case incorporated sound
business practices identified in OIG-E-2013-014 and OIG-E-2013-020 and (2) issues that
the acquisition team could address to enhance the final business case and improve its
assessment of the company’s risk in procuring new trainsets. We performed our work
from November 2013 through March 2014 in Washington, D.C.

To address our objectives, we initially compared the business case and supporting
analysis to the sound business practices we previously identified in our reports OIG-E-
2013-014 and OIG-E-2013-020. We also met with acquisition team officials to determine
how the team plans to develop a more detailed and comprehensive final business case
supporting the potential acquisition of new high-speed trainsets. In addition, we
discussed our observations with responsible officials in several departments across the
company. During these discussions, we reviewed the company’s processes for
forecasting operations costs, maintenance costs, and revenue; obtained supporting
documentation for those forecasts; and resolved outstanding questions. We discussed
the results of our evaluation with Amtrak officials.

We performed this evaluation in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the evaluation
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our objectives.

Internal Controls

In conducting the evaluation, the team used prior reports to identify controls that
would better enable the company to develop a sound business case, including
integrating the plan with other corporate plans, using empirical data to forecast
lifecycle costs and support the case, and ensuring that management has oversight of
the planning process. Although the company has established a process to develop the
                                                                                         11
                         Amtrak Office of Inspector General
  Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
      Business Case for Procuring Next Generation High-Speed Trainsets and
               Could Enhance its Final Case with Further Analysis.
                          OIG-E-2014-007, May 29, 2014

business that includes some of these controls, the team identified a number of
opportunities to strengthen the process. We presented the results of our review in the
body of this report.

Use of Computer-Processed Data

We did not rely on computer-processed data to determine the findings or conclusions
of this report.

Prior Reports

In conducting our evaluation, we relied on the following reports from Amtrak OIG:

      Asset Management: Amtrak is Preparing to Operate and Maintain New Locomotives,
       but Several Risks to Fully Achieving Intended Benefits Exist (OIG-E-2013-021,
       September 27, 2013)
      Corporate Governance: Planned Changes Should Improve Amtrak’s Capital Planning
       Process, and Further Adoption of Sound Business Practices Will Help Optimize the Use
       of Limited Capital Funds (OIG-E-2013-020, September 27, 2013)
      Asset Management: Integrating Sound Business Practices into its Fleet Planning
       Process Could Save Amtrak Hundreds of Millions of Dollars on Equipment
       Procurements (OIG-E-2013-014, May 28, 2013)
      Acela Car Purchase: Future Revenue Estimates Were Initially Overstated (OIG-E-
       2012-010, March 28, 2012)
                                                                                12
                       Amtrak Office of Inspector General
Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
    Business Case for Procuring Next Generation High-Speed Trainsets and
             Could Enhance its Final Case with Further Analysis.
                        OIG-E-2014-007, May 29, 2014

                                Appendix B

              COMMENTS FROM AMTRAK’S
       CHIEF, STRATEGIC FLEET RAIL INITIATIVES
                                                                                13
                       Amtrak Office of Inspector General
Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
    Business Case for Procuring Next Generation High-Speed Trainsets and
             Could Enhance its Final Case with Further Analysis.
                        OIG-E-2014-007, May 29, 2014
                                                                                14
                       Amtrak Office of Inspector General
Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
    Business Case for Procuring Next Generation High-Speed Trainsets and
             Could Enhance its Final Case with Further Analysis.
                        OIG-E-2014-007, May 29, 2014
                                                                                  15
                         Amtrak Office of Inspector General
  Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
      Business Case for Procuring Next Generation High-Speed Trainsets and
               Could Enhance its Final Case with Further Analysis.
                          OIG-E-2014-007, May 29, 2014

                                    Appendix C

                           OIG TEAM MEMBERS

Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Jason Venner, Senior Director, Inspections and Evaluations

Joshua Moses, Evaluator

Robert Dyer, Principal Operations Analyst
                                                                                   16
                         Amtrak Office of Inspector General
  Asset Management: Amtrak Followed Sound Practices in Developing a Preliminary
      Business Case for Procuring Next Generation High-Speed Trainsets and
               Could Enhance its Final Case with Further Analysis.
                          OIG-E-2014-007, May 29, 2014


           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         Amtrak OIG’s mission is to provide independent,
                             objective oversight of Amtrak’s programs and operations
                             through audits, inspections, evaluations, and
                             investigations focused on recommending improvements
                             to Amtrak’s economy, efficiency, and effectiveness;
                             preventing and detecting fraud, waste, and abuse; and
                             providing Congress, Amtrak management, and Amtrak’s
                             Board of Directors with timely information about
                             problems and deficiencies relating to Amtrak’s programs
                             and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    800-468-5469

Congressional and            Calvin E. Evans
Public Affairs               Assistant Inspector General, Inspections and Evaluations
                             Mail:     Amtrak OIG
                                       10 G Street NE, 3W-300
                                       Washington D.C., 20002
                             Phone:    202-906-4507
                             E-mail:   calvin.evans@amtrakoig.gov
